Report No. D-2009-026           November 26, 2008




      Small Business Contracting Under the
            Navy DDG-1000 Program
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
BAE               British Aerospace Systems, Limited
BIW               Bath Iron Works
CSP               Comprehensive Subcontracting Plan
FAR               Federal Acquisition Regulation
HUBZone           Habitually Underutilized Business Zone
NAVSEA            Naval Sea Systems Command
NGSS              Northrop Grumman Ship Systems
TWT               Trans World Technologies, Inc.
                                   INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON. VIRGINIA 22202-4704


                                                                               November 26, 2008

MEMORANDUM FOR NAVAL INSPECTOR GENERAL
               COMMANDER, NAVAL SEA SYSTEMS COMMAND

SUBJECT: Small Business Contracting Under the Navy DDG-lOOO Program
         (Repoli No. D-2009-026)


We are providing this repOli for your information and use. We performed the audit in response to
a congressional request. We considered management comments on a draft of the report in
preparing the final report.

Comments on the draft of this report confOlmed to the requirements of DoD Directive 7650.3 and
left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the couliesies extended to the staff. Please direct questions to Mr. Benjamin A.
Mehlman at (703) 604-9291 (DSN 664-9291) or Mr. RudolfNoordhuizen at (703) 604-8959
(DSN 664-8959).




                                            Richard B. Jolliffe
                                            Assistant Inspector General
                                            Acquisition and Contract Management
                   Report No. D-2009-026 (Project No. D2007-D000AB-0222.000)
                                       November 26, 2008


              Results in Brief: Small Business Contracting
              Under the Navy DDG-1000 Program
The Navy DDG-1000 Zumwalt-class guided                from $94.8 million in Phase III to $97.4 million
missile destroyer is designed as a multimission       in Phase IV.
ship with a focus on land attack. The Navy
used a four-phased approach in the development        Of 71 small businesses that participated in
and construction of the DDG-1000.                     Phase III but did not participate in Phase IV, one
                                                      small business claimed it was denied the
What We Did                                           opportunity to participate in Phase IV. That
This audit was requested by five Members of           small business received $548,619 in equitable
Congress. Our overall objective was to                adjustments from a DDG-1000 Phase III prime
determine whether the Navy followed Federal           contractor for costs incurred in anticipation of
Acquisition Regulation requirements for               Phase IV work. The Phase III prime contractor
competition in subcontracting. Specifically, we       apparently billed and inappropriately received
determined whether small business contractors         reimbursement from the Navy for the $548,619.
that participated in the DDG-l000 Risk                We called the remaining 70 small businesses
Mitigation Phase (Phase III) were given the           and reached 56, none of which reported being
opportunity to bid on subcontracts awarded for        denied the opportunity to participate in
the DDG-1000 Detailed Design and Integration          Phase IV.
Phase (Phase IV).
                                                      What We Recommend
What We Found                                         The Navy should verify the prime contractor’s
The Navy followed Federal Acquisition                 statement that the $548,619 payments were
Regulation requirements for competition in            subsequently billed to the Navy through a direct
DDG-l000 program subcontracting and allowed           charge to contract N00024-02-C-2302. If the
small business contractors to participate in          Navy made payments to the prime contractor for
Phase IV of the DDG-1000 program.                     the subcontractor costs, the Navy should instruct
Moreover, the Navy and its four DDG-1000              the contracting officer to recover the payments.
prime contractors integrated small businesses
into DDG-1000 program subcontracting plans            Client Comments and Our
and encouraged small business involvement in          Response
DDG-1000 Phase IV. DDG-1000 prime                     Navy management comments were responsive
contractors increased the number of small             to the recommendations. See recommendations
businesses awarded contracts valued at more           table on page ii.
than $100,000 from 88 small businesses in
Phase III to 105 small businesses in Phase IV.
The value of contracts that prime contractors
awarded to small businesses also increased,




                                                      DDG-1000 Zumwalt-class Destroyer
                                                  i
          Report No. D-2009-026 (Project No. D2007-D000AB-0222.000)
                              November 26, 2008




Recommendations Table
Client                       Recommendations          No Additional
                             Requiring Comment        Comments Required
Naval Sea Systems Command                             1., 2.




                                     ii
Table of Contents

Results in Brief                                                                i

Introduction                                                                    1

       Objective                                                                1
       Background                                                               1

Finding. Small Business Participation in the Detailed Design and Integration
Phase of the DDG-1000 Program                                                  5

       Recommendations, Clients Comments, and Our Response                     13

Appendices

       A. Scope and Methodology                                                15
             Review of Internal Controls                                       15
             Prior Coverage                                                    16
       B. Congressional Request                                                17
       C. Diagram of the Phases of the DDG-1000 Program, Showing Contractors   19
       D. Congressional Questions and Audit Responses                          21

Client Comments

       Department of the Navy Comments                                         25
Introduction
Objective
The overall objective of the audit was to determine whether the Navy followed Federal
Acquisition Regulation (FAR) requirements for competition in subcontracting.
Specifically, we determined whether small business contractors that participated in the
earlier DDG-l000 Risk Mitigation Phase were given the opportunity to bid on
subcontracts awarded for the Detailed Design and Integration Phase. See Appendix A for
a discussion of the scope and methodology, our review of internal controls, and prior
coverage related to the objective.

Background




   DDG-1000 Zumwalt

The mission of the Navy’s next generation destroyer is to perform surface warfare, anti-
aircraft, and naval fire support functions. The Navy originally designated its next-
generation destroyer as the DD-21 program. In November 2001, the DoD renamed the
DD-21 program as the DD(X) destroyer program. In April 2006, the Navy announced
the first ship of this class would be designated as the DDG-1000 Zumwalt-class destroyer.
The Navy has used a four-phase approach in the development and construction of the
DDG-1000. See Appendix C for a diagram of the four phases and the DDG-1000
program prime contractors for each phase.




                                           1
Phases I and II: System Concept Phase and Initial System
Design Phase
The Navy’s strategy for acquiring the destroyer consisted of a phased competitive
development process. Phase I (System Concept Design) and Phase II (Initial Systems
Design) were executed under one agreement involving two competing teams: the blue
team, led by prime contractor General Dynamic’s Bath Iron Works (BIW) of Bath,
Maine, teamed with Lockheed Martin Corporation as the systems integrator; and the gold
team, led by prime contractor Northrop Grumman Ship Systems (NGSS) at Ingalls
Shipyard, Pascagoula, Mississippi, teamed with Raytheon Integrated Defense Systems
(Raytheon) as the systems integrator. The Navy entered into an agreement with BIW
during Phases I and II of the program. The agreement was to be followed by a
competition between the two DD-21 teams (gold and blue teams). In November 2001,
following Phase II, the solicitation was cancelled and the program was restructured.

Phase III: Risk Mitigation Phase
The Navy awarded a prime contract to NGSS (N00024-02-C-2302) in the Risk
Mitigation Phase of the DDG-1000 program. In April 2002, the Navy selected the gold
team, led by NGSS, as the prime contractor for the DDG-1000 Risk Mitigation Phase
responsible for system design, engineering prototype development, and testing. Raytheon
continued as an NGSS subcontractor for mission systems integration. The Risk
Mitigation Phase involved more than 30 engineering and maritime industrial companies.
The completion of the DDG-1000 system critical design review in September 2005
marked the end of the Risk Mitigation Phase.

Phase IV: Detailed Design and Integration Phase
On November 23, 2005, the Under Secretary of Defense for Acquisition, Technology,
and Logistics granted Milestone B approval, authorizing entrance into DDG-1000
program Phase IV for detailed design and simultaneous construction of one ship at
NGSS’s Ingalls Shipyard and one ship at General Dynamic’s BIW. There was to be an
initial production of eight ships. As a result, the Navy is using four DDG-1000 Phase IV
prime contractors: Raytheon as the principal ship integrator, British Aerospace Systems,
Limited (BAE) to develop and manufacture an advanced gun system, and NGSS and
BIW for ship construction. The Navy awarded four prime contracts during the Detailed
Design and Integration Phase to NGSS (N00024-06-C-2304), BIW (N00024-06-C-2303),
Raytheon (N00024-05-C-5346), and BAE (N00024-05-C-5117). Public Law 109-13,
“The Emergency Supplemental Appropriations Act for Defense, the Global War on
Terror, and Tsunami Relief, 2005,” May 11, 2006, prohibited the implementation of a
winner-take-all strategy for the DDG-1000.




                                           2
Concerns Regarding DDG-1000 Subcontract Award
From May 8, 2006, through December 21, 2006, DDG-1000 program subcontracting
issues were the subject of correspondence between Members of Congress1 and Navy
officials.

Congressional Concerns
Members of Congress were concerned that small high-technology businesses that
participated in earlier phases of the DDG-1000 program were denied the opportunity to
bid on DDG-1000 Phase IV subcontracts. The congressional correspondence alleged that
Raytheon subcontracted Phase IV work to Lockheed Martin on a sole-source basis at the
Navy’s direction, resulting in small businesses’ being denied the opportunity to compete
for work they had previously performed during Phases I, II, and III, and after the
businesses had made substantial investments in facilities and personnel to support the
program. Congressional correspondence specifically noted that one small business, Trans
World Technologies, Inc. (TWT) participated in the design of the ship control system
during the first three phases of the DDG-1000 program but was denied the opportunity to
bid on Phase IV ship control system work. The Members of Congress requested that the
Navy grant TWT and other small businesses the opportunity to submit termination-for-
convenience claims or an equivalent form of equitable adjustment based on the impact of
the Navy’s reorganization of the DDG-1000 program.

Department of the Navy Responses
In an August 22, 2006, response to Senators Specter and Santorum and Representative
Schwartz, the Assistant Secretary of the Navy (Research, Development, and Acquisition)
stated that Lockheed Martin, based on the results of a trade study, selected an already
developed Government-furnished product to meet the requirements for ship control
system software. The Assistant Secretary noted that, as a result, Lockheed Martin
required no additional procurement for a ship control system from TWT. On
November 20, 2006, the Secretary of the Navy responded to Senators Specter and
Santorum, stating that Lockheed Martin had unique capabilities in radar and software
development that were applied in prior phases of the DDG-1000 program. As a result,
Lockheed Martin was the only entity that could maintain the program schedule and
deliver the required products to Raytheon. The Secretary also stated that (1) the Navy did
not encourage any company involved in the program to make investments for the promise
of work, (2) the Navy satisfied all obligations covered by the Phase III contract, and
(3) TWT was given adequate notice of the Navy’s plans for Phase IV. The Secretary
noted that recovery of any contractor costs outside of these investments was neither
expressed nor implied and that the Navy had no requirement or mechanism to provide
further compensation.




1
 Members of Congress included five Senators—Arlen Specter; Robert P. Casey, Jr.; Joseph R. Biden, Jr.;
Rick Santorum; and Thomas R. Carper—and Representative Allyson Y. Schwartz.


                                                   3
Congressional Request for Inspector General Audit
On May 29, 2007, Senators Specter, Casey, Biden, and Carper and Representative
Schwartz requested that the DoD Office of Inspector General perform an audit of the
DDG-1000 program. See Appendix B for a copy of the congressional request and
Appendix D for three specific questions posed by the Members of Congress for Office of
Inspector General response.




                                          4
Finding. Small Business Participation in the
Detailed Design and Integration Phase of the
DDG-1000 Program
The Navy and its prime contractors adhered to small business subcontracting laws and
regulations and allowed small business contractors to participate in Phase IV of the
DDG-1000 program. Only 1 of 71 small businesses that participated in Phase III but did
not participate in Phase IV believed it was denied the opportunity to participate.2 This
level of satisfaction occurred because the Navy and its DDG-1000 prime contractors
integrated small businesses into DDG-1000 program subcontracting plans and
encouraged small business involvement in Phase IV of the DDG-1000 program. As a
result, DDG-1000 prime contractors increased the number of small businesses awarded
contracts valued at more than $100,000 from 88 small businesses in Phase III to 105
small businesses in Phase IV. The value of contracts that prime contractors awarded to
small businesses also increased 2.8 percent, from $94.8 million in Phase III to
$97.4 million in Phase IV.

Small Business Subcontracting Laws and Regulations
Federal prime contractors are required by law and regulation to subcontract with small
businesses whenever possible. Prime contractors awarded contracts over $550,000 are
required to submit small business subcontracting plans or suffer disqualification. These
small business subcontracting plans greatly multiply the opportunities otherwise available
to small business contractors.

Opportunities for Small Businesses
Chapter 14a of section 631a, title 15, United States Code (15 U.S.C. 631a) states in part
that the policy of the Federal Government is to:

    •   foster and promote the economic interests of small businesses;
    •   insure a competitive economic climate conducive to the development, growth, and
        expansion of small businesses; and
    •   provide an opportunity for small business entrepreneurship and inventiveness.

FAR Subpart 19.2, “Policies,” states that it is Government policy to provide maximum
practicable opportunities for acquisitions to small business, veteran-owned small
business, service-disabled veteran-owned small business, Habitually Underutilized
Business Zone (HUBZone) small business, small disadvantaged business,


2
  Congressional correspondence to the Navy and to us alleged that 1 of the 71 small businesses, TWT, was
denied the opportunity to bid on Phase IV ship control system work. We called the remaining 70 small
businesses and reached 56. None of the 56 small businesses that responded to us believed they were denied
the opportunity to participate.


                                                   5
and women-owned small business concerns. Such concerns must also have the
maximum practicable opportunity to participate as subcontractors in the contracts
awarded by any executive agency, consistent with efficient contract performance. The
Small Business Administration counsels and assists small business concerns and assists
contracting personnel to ensure that a fair proportion of contracts for supplies and
services are placed with small businesses.

Subcontracting Plan Requirement
For negotiated acquisitions expected to exceed $550,000, FAR Subpart 19.7, “Small
Business Subcontracting Program,” mandates that the Government require the successful
offeror to submit an acceptable subcontracting plan. If the apparently successful offeror
fails to negotiate a subcontracting plan acceptable to the contracting officer within the
time limit prescribed by the contracting officer, the offeror becomes ineligible for award.
Prime contractors must comply in good faith with the subcontract plan requirements or be
subject to Government imposition of liquidated damages.

Contracting Officer Subcontracting Responsibilities
The FAR permits the contracting officer to direct prime contractor award of subcontracts
without competition when doing so would be in the best interest of the Government. For
example, FAR 44.201, “Consent and Advance Notification Requirements,” and
FAR 44.202, “Contracting Officer’s Evaluation,” describe the contracting officer
requirement to consent to prime contractor selection of subcontracts. FAR 2.101,
“Definitions,” defines “Consent to subcontract” as the contracting officer’s written
consent for the prime contractor to enter into a particular subcontract. The contracting
officer’s consent to a subcontract may be required if the contracting officer has
determined that it is necessary to protect the Government because of the subcontract type,
complexity, or value, or because the subcontract needs special surveillance. The
contracting officer must, at a minimum, review the request and supporting data and
consider factors such as whether the prime contractor (1) obtained adequate price
competition or properly justified its absence and (2) performed adequate cost or price
analysis or price comparisons and obtained accurate, complete, and current cost or
pricing data, including any required certifications. However, the FAR does not require a
justification, approval, or file document regarding Government direction to a prime
contractor to make a subcontract award to a specific subcontractor.

Prime Contractor Subcontracting Responsibilities
FAR 42.202(e)(2), “Secondary Delegations of Contract Administration,” states that the
prime contractor has the responsibility to select and manage a subcontractor.
FAR 52.244-5, “Competition in Subcontracting,” states that the contractor shall select
subcontractors (including suppliers) on a competitive basis to the maximum practical
extent consistent with the objectives and requirements of the contract.

Subcontractor Responsibilities
When a subcontractor believes it has been denied the opportunity to bid on or compete
for work, the subcontractor must negotiate with or sue the prime contractor directly.



                                            6
There is no “privity of contract” between the Government and a subcontractor and,
usually, the Government may not intervene in a dispute between a prime contractor and a
subcontractor.

DDG-1000 Program Subcontracting Plans
The Navy and its DDG-1000 prime contractors integrated small businesses into
DDG-1000 program subcontracting plans and encouraged small business involvement in
Phase IV of the DDG-1000 program. Small business subcontracting played a major role
in the business decisions of the four prime contractors and was supported at the highest
levels of management. All four DDG-1000 Phase IV prime contractors (BAE, NGSS,
BIW, and Raytheon) had valid subcontracting plans that contained the elements required
by the FAR. All four prime contractor plans also described prime contractor efforts to
ensure small businesses received an equitable opportunity to compete for subcontracts.

BAE Plan
The BAE small business plan goal of 47 percent exceeded the Small Business
Administration goal of 39 percent. However BAE received a waiver from the Defense
Contract Management Agency to allow the BAE small disadvantaged business goal to be
lower than the congressionally recommended 5 percent because of BAE difficulties in
finding technically qualified, Small Business Administration-certified, small
disadvantaged suppliers. Specifically, BAE noted that the goal could not be met because
of the size of DDG-1000 ship components and the stringent technical requirements.

BIW Plan
The BIW subcontracting plan noted the company’s program fell under the responsibility
of the BIW Director of Procurement. BIW also noted that its current small business
subcontracting goal is 26 percent of contracting funds.

NGSS Plan
The NGSS subcontracting plan stated that NGSS “policy requires buyers to find,
encourage and solicit the maximum number of small businesses for potential award.”
Accordingly, buyers screen for inclusion of small businesses all requests for proposal
with a potential total of $25,000 or more. The NGSS plan also noted that the company
small business liaison officer makes management and buyers aware of small business
procurement opportunities and the necessity to give small businesses equitable bidding
opportunity. The NGSS 2008 small business subcontracting goal was 22 percent of
contracting funds.




                                           7
Raytheon Plan
Raytheon Corporation, as a participant in the Comprehensive Subcontracting Plan (CSP)
Test Program,3 was exempt from submission of an individual DDG-1000 small business
subcontracting plan. Raytheon and other CSP program participants are required to
negotiate a CSP each fiscal year on a corporate, division, or plant-wide basis that offers a
broad range of subcontracting opportunities for small businesses and includes a small
disadvantaged business goal of not less than 5 percent (or agree to a detailed plan to
achieve 5 percent within a certain period). During Phase III of the DDG-1000 program,
Raytheon, as NGSS subcontractor, used 698 second-tier subcontractors at a cost of
$169 million.

DDG-1000 Phase IV Subcontracting
The four DDG-1000 prime contractors did not exclude small businesses from
participation in detailed design and integration tasks performed in Phase IV. Three of the
four DDG-1000 prime contractors increased both the number of small businesses and the
dollar amount of work subcontracted from Phase III to Phase IV. For example, during
Phase III, Raytheon used 462 second-tier small business subcontractors at a cost of
$18.1 million. During Phase IV, Raytheon used a total of 491 subcontractors at a cost of
$70.9 million. Table 1 shows the increase in the number of subcontractors used and the
value of work subcontracted to small businesses between Phases III and IV.

       Table 1. Small Business Subcontractors and Awards, by Prime Contractor

     Prime                Phase III                                    Phase IV
     Contractor Subcontractors     Amount*                   Subcontractors     Amount
                                 (in millions)                                (in millions)
     BAE                9             $3.8                         29             20.4

     BIW                       8                10.0                  13                15.2

     NGSS                    169                75.8                  28                12.2

     Raytheon                462                18.1                491                 70.9

    * During Phase III, BAE, BIW, and Raytheon were subcontractors to NGSS. Thus, Phase III amounts
    represent BAE, BIW, and Raytheon second-tier subcontractors.




3
 Section 834, Public Law 101-189, “National Defense Authorization Act for Fiscal Year (FY) 1990 and
1991,” November 29, 1989, established the DoD Comprehensive Subcontracting Plan (CSP) Test Program.
The DoD Office of Small Business Programs provided policy and guidance for the CSP program; the
Defense Contract Management Agency manages the program.


                                                   8
However, NGSS showed a marked decrease in both the number of Phase IV small
businesses used and the amount paid to small businesses. This decrease occurred because
of the change of status of NGSS from the sole Phase III prime contractor to one of four
prime contractors during Phase IV as explained above.

Increase in DDG-1000 Small Business Participation
The number of small businesses receiving awards valued at over $100,000 increased by
19 percent from Phase III to Phase IV. As shown in Table 2, 88 small businesses
received awards valued at $94.8 million in Phase III, while 105 small businesses received
awards valued at $97.4 million in Phase IV.4

Three of the four DDG-1000 Phase IV prime contractors—Raytheon, BIW, and BAE—
increased the number of small businesses and the total dollar amount of subcontracts
awarded from Phase III to Phase IV. NGSS was the only prime contractor to show a
decrease in the number of small businesses used in Phase IV.

                    Table 2. Small Business Subcontractors and Awards
                             Over $100,000, by Type of Business

                                      Phase III                          Phase IV
            Type of                         Amount                             Amount
            Business          Businesses (in millions)           Businesses (in millions)
         Small (Other)             72         $79.5                   87         $87.3
         Disadvantaged              1           2.6                    1           0.6
         Women                      5           6.6                    7           3.3
         Owned
         Veteran                       4                 1.2              8               5.4
         Owned
         HUBZone                      6              4.8                 2               0.9
           Total                     88            $94.8               105             $97.4


Phase IV Small Business Contracts
The Navy and its four Phase IV prime contractors adhered to small business
subcontracting laws and regulations and allowed small business contractors to participate
in Phase IV of the DDG-1000 program. Only 1 of 71 small businesses that participated
in Phase III but did not participate in Phase IV believed it was denied the opportunity to
participate.




4
  The final number and amounts of awards to DDG-1000 small businesses for the detailed design and
integration work were not determined at the time of the audit; the Detailed Design and Integration Phase
was in progress.


                                                     9
Phase IV Small Business Follow-on Subcontracts
The DDG-1000 program prime contractors used 88 small business subcontractors during
Phase III. Of the 88 subcontractors, 17 (19 percent) received follow-on contracts valued
at $24.1 million for Phase IV. Thus, of the 88 small businesses that participated in Phase
III, 71 small businesses (with Phase III work valued at $71.1 million) did not participate
in Phase IV.

We called Phase IV nonparticipating small businesses other than TWT to determine
whether they perceived any hindrance in competing in Phase IV. The small businesses
included 48 NGSS Phase III small business subcontractors, and 22 small businesses with
Phase III second-tier subcontracts with Raytheon, BAE, and BIW. 5 We were able to
reach 38 of the 48 NGSS Phase III small business subcontractors, and 18 of the 22
Raytheon, BAE, and BIW second-tier Phase III small business subcontractors. With the
TWT exception, we did not find any small business that participated in Phase III that
perceived it was denied the opportunity to participate in Phase IV. The subcontractors
generally noted that they completed their Phase III work and did not seek follow-on work
in Phase IV.

Ship Control System Subcontracting
The DDG-1000 ship control system provides supervisory control of resources and actions
that support rapid response to fire or smoke, flooding, stability, and hull stress casualties
to help maintain the overall integrity and survivability of the ship. Seventy-one small
businesses participated in Phase III but not in Phase IV. Only one small business, TWT,
believed it was denied the opportunity to participate in Phase IV. TWT was a
subcontractor to prime contractor NGSS during Phase III. TWT performed development
of the damage decision and assessment component of the DDG-1000 ship control system.
TWT completed subcontract performance on September 30, 2005. TWT contended that
its Phase III participation included a requirement to present to the Navy and NGSS
TWT’s Phase IV preparations.

Raytheon Phase IV Ship Control System Subcontract to Lockheed
Martin
Navy contract N00024-05-C-5346, May 25, 2005, directed Raytheon to subcontract with
Lockheed Martin for the Phase IV continuation of previously established DDG-1000
responsibilities, including software development for the ship control system. Raytheon
awarded Lockheed Martin a Phase IV subcontract on March 30, 2007, valued at
$669.6 million to perform systems engineering management for DDG-1000 command,
control, and intelligence components including the damage decision and assessment
software. The damage decision and assessment software was one of six components of
the DDG-1000 ship control system.

The FAR permits the contracting officer to direct prime contractor award of subcontracts
without competition when doing so would be in the best interest of the Government. We


5
    Raytheon, BAE, and BIW served as NGSS Phase III subcontractors.


                                                  10
could not determine whether the Navy-directed Raytheon award was justified because the
Navy could not provide any analysis, justification or approval, or other documentation to
support the contracting officer’s direction. However, the FAR does not require a
justification, approval, or file document regarding Government direction to a prime to
make award to a particular subcontractor.

Lockheed Martin Phase IV Second-Tier Subcontracts
Lockheed Martin did not produce the Phase IV damage decision and assessment
software. Instead, Lockheed Martin received a substitute software package from
Raytheon as customer-furnished information.6 Lockheed Martin Maritime Systems &
Sensors conducted a trade study to determine the viability and affordability of developing
a fully functional damage decision and assessment component. The trade study
concluded that the customer-furnished information software had several prior shipboard
installations and met nearly all functional requirements for stability and hull stress.
Subsequently, on March 30, 2007, Raytheon prepared a detailed design and integration
activities statement of work for the Lockheed Martin subcontract. The statement of work
directed Lockheed Martin to establish second-tier subcontracts with a Raytheon
subsidiary, Raytheon Network Centric Systems, to develop DDG-1000 ship control
system components, including software for damage decision and assessment, situational
awareness, and operation and mission planning. Phase IV damage decision and
assessment software work was directed to be performed at Raytheon Network Centric
Systems in Fort Wayne, Indiana.

We asked Raytheon and Lockheed Martin program officials whether they considered
competing first- and second-tier subcontracts for the damage decision and assessment
component of the DDG-1000 ship control system. Lockheed Martin officials stated that
the Navy directed the Raytheon subcontract award to Lockheed Martin. The Lockheed
Martin officials also stated that the Navy had directed Raytheon to direct Lockheed
Martin to award three second-tier subcontracts to large businesses, including two second-
tier subcontracts to Raytheon subsidiaries. In a May 29, 2008, written response to our
questions, Raytheon stated that its direction to Lockheed Martin to use the Raytheon
Network subsidiaries was based on an agreement between Raytheon and Lockheed
Martin to allow Lockheed Martin to maintain lead status for Phase IV DDG-1000
detailed design and integration activities while at the same time allowing Raytheon
Network Centric Systems to continue work performed under Phase III for damage
decision and assessment, situational awareness, and operation and mission planning.
Raytheon officials stated that they were not sure about the Navy’s direction of second-tier
subcontracts. We found no Navy documentation to support the Lockheed Martin claim
of Navy direction of the second-tier subcontracts.




6
 The Raytheon software, referred to as Flooding Causality Control Software, was based on source code
developed by the Naval Surface Warfare Center, Carderock, Maryland. Raytheon provided the software to
Lockheed Martin on January 31, 2007.


                                                 11
NGSS Compensation to TWT
NGSS has reimbursed TWT for $548,619 in response to two TWT equitable adjustment
claims that TWT incurred costs in anticipation of receiving ship control system work
through Phase IV. On August 3, 2005, TWT presented NGSS with an initial request for
equitable adjustment for $172,888. In a December 2, 2005, NGSS memorandum to
TWT, NGSS noted that TWT was entitled to an equitable adjustment. On January 24,
2006, NGSS increased its TWT subcontract by $162,110 to pay TWT for “costs incurred
due to NGSS scope reduction” and noted that “a partial termination for convenience was
the end result of the reduction of the scope of the TWT subcontract.” On July 18, 2006,
TWT filed an additional $434,851 request for equitable adjustment with NGSS for
leasing costs entered into in anticipation of doing work through Phase IV. On March 28,
2007, NGSS increased its TWT subcontract by an additional $386,509 to settle the
second TWT claim.

NGSS Equitable Adjustment Expense
Navy prime contract N00024-02-C-2302 with NGSS for Phase III risk mitigation was a
cost-plus-base-and-award-fee contract. NGSS officials stated that the $548,619 in NGSS
equitable adjustment payments to TWT was subsequently billed to the Navy through a
direct charge to contract N00024-02-C-2302.7

The NGSS billing appeared to foster and encourage out-of-scope and precontract
expenses by its subcontractors at the cost of the Government. The Navy was not
responsive to our requests to determine whether the charges were passed through to the
Navy and whether the Navy paid the charges. If the Navy paid the charges, we believe
that the Naval Sea Systems Command (NAVSEA) contracting officer should recover the
$548,619 in Navy payments made to NGSS for subcontractor costs directly charged to
the Navy through contract N00024-02-C-2302.

TWT Federal Court Suit
On October 25, 2006, Raytheon notified the Navy that TWT had filed suit against
Raytheon and Lockheed Martin in the United States District Court for the District of New
Jersey. TWT alleged that the conduct of Raytheon and Lockheed Martin resulted in
TWT’s inability to compete for the damage assessment component of the DDG-1000 ship
control system. TWT also alleged that Raytheon and Lockheed Martin conspired to take
TWT proprietary information regarding the damage assessment component for their own
use to perform DDG-1000 Phase IV work. In November 9, 2006, correspondence to
Senators Joseph Biden and Thomas Carper, the Assistant Secretary of the Navy
(Research, Development, and Acquisition) stated that the Navy did not intend to take
further action on the matter unless and until warranted by results of any legal adjudication
obtained by TWT. On January 23, 2008, the United States District Court dismissed the



7
 On March 25, 2008, we notified and provided documentation of NGSS payments to TWT to the Defense
Contract Audit Agency. Defense Contract Audit Agency officials stated that they were performing an audit
of NGSS FY 2006 incurred costs and expected to complete the audit by December 30, 2008.


                                                  12
TWT lawsuit “with prejudice and without costs.” Raytheon notified the Navy of the
dismissal on February 6, 2008.

Conclusion
The Navy and its prime contractors actively sought out small businesses to participate in
Phase IV of the DDG-1000 program. We did not find evidence that large businesses
hindered small business participation in Phase IV of the DDG-1000 program through the
use of sole-source contract awards. A total of 71 small businesses with Phase III work
valued at $71.1 million did not participate in Phase IV. Of the 71 small businesses that
participated in Phase III but did not participate in Phase IV, 1 small business (TWT)
stated that it was denied the opportunity to bid on Phase IV. The United States District
Court for the District of New Jersey dismissed a TWT suit against Raytheon and
Lockheed Martin alleging restriction of competition for Phase IV. NGSS paid TWT
equitable adjustments totaling $548,619 for costs TWT incurred in anticipation of
Phase IV work. NGSS officials stated that they charged the Navy’s NGSS DDG-1000
prime contract for the TWT equitable adjustments.

Recommendations, Client Comments, and Our
Response
We recommend that the Commander, Naval Sea Systems Command:

       1. Verify the Northrop Grumman Ship Systems’ statement that the $548,619
in equitable adjustment payments to TWT were subsequently billed to the Navy
through a direct charge to contract N00024-02-C-2302.

Navy Comments
The Director, Program Analysis and Business Transformation, Office of the Assistant
Secretary of the Navy (Research, Development, and Acquisition) endorsed and forwarded
comments from the Commander, NAVSEA. The Commander, NAVSEA concurred with
the recommendation and noted that it appeared that NGSS charges associated with TWT
were billed to the Navy under contract N00024-02-C-2302. The Commander noted that
full verification of the amount in question was being sought by the Supervisor of
Shipbuilding Gulf Coast and that the Defense Contract Audit Agency was reviewing
what charges were actually billed and allowable. The Commander also stated that by
October 30, 2008, the Defense Contract Audit Agency would provide preliminary results
to NGSS for comment.8 The Commander noted a target completion date of
December 31, 2008. However, the Director, Program Analysis and Business
Transformation, Office of the Assistant Secretary of the Navy, subsequently revised the
completion date to January 30, 2009, due to delays in receipt of DCAA audit results.




8
    As of November 17, 2008, the Defense Contract Audit Agency had not finalized its report to the Navy.


                                                     13
Our Response
The comments of the Commander, NAVSEA were responsive and conformed to
requirements; no additional comments are needed.

       2. If the Navy made payments to Northrop Grumman Ship Systems for
subcontractor costs directly charged to the Navy through contract N00024-02-C-
2302, instruct the contracting officer to recover the total of these payments,
$548,619.

Navy Comments
The Commander, NAVSEA concurred with the recommendation and stated that if
charges are found to be unallowable, the Supervisor of Shipbuilding Gulf Coast would
request recovery of any unallowable funds by January 31, 2009. However, the Director,
Program Analysis and Business Transformation, Office of the Assistant Secretary of the
Navy, subsequently revised the completion date to March 3, 2009, due to delays in
receipt of DCAA audit results.

Our Response
The comments of the Commander, NAVSEA were responsive and conformed to
requirements; no additional comments are needed.




                                          14
Appendix A. Scope and Methodology
We conducted this performance audit from August 2007 through September 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence dated
from June 1998 through August 2008 , to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We reviewed DDG-1000 program small business subcontracting for program Phases III
and IV as implemented by the NAVSEA. We obtained the names and associated
subcontract award information for all small businesses used by the DDG-1000 program’s
four prime contractors: Raytheon, BAE, BIW, and NGSS.

To gather information pertaining to the small business subcontractors and DDG-1000
background information, we visited NAVSEA in Washington, D.C.; NGSS in
Pascagoula, Mississippi; and Raytheon in Tewksbury, Massachusetts. We reviewed and
analyzed Raytheon, BAE, BIW, NGSS, and Lockheed Martin compliance with small
business subcontracting procedures. We also determined whether Raytheon awarded a
specific Phase IV subcontract to Lockheed Martin at Navy direction. We visited
Lockheed Martin offices in Moorestown, New Jersey, to determine whether Lockheed
Martin directed second-tier subcontracts to other large businesses at the direction of the
Navy or Raytheon and whether the practice was acceptable under existing regulations. .
We reviewed United States Code, the FAR, the Defense FAR Supplement, the Navy
Marine Corps Acquisition Regulation Supplement, and corporate small business
subcontracting procedures of Raytheon, BAE, BIW, NGSS, and Lockheed Martin.

In all, 1,029 small businesses participated in Phases III and IV of the DDG-1000
program. We limited our evaluation of subcontract awards in Phases III and IV to
176 Phase III and IV subcontract awards greater than $100,000 distributed among the
four Phase IV DDG-1000 prime contractors.

Review of Internal Controls
The Navy’s internal controls over DDG-1000 subcontracting were adequate; we
identified no material internal control weaknesses as defined by DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
2006.

Use of Computer-Processed Data
To achieve the audit objectives, we relied on computer-processed data obtained from the
Navy’s four prime contractors. We did not perform a formal reliability assessment of the


                                            15
computer-processed data. However, we did not find significant irregularities in the
information that would preclude the use of the computer-processed data to meet the audit
objective or that would change the conclusions in this report.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) issued one report
on the DDG-1000 program and one report discussing small business subcontracting
program for major acquisitions. Unrestricted GAO reports can be accessed over the
Internet at http://www.gao.gov.

GAO
GAO Report No. GAO-08-804, “Cost to Deliver Zumwalt-Class Destroyers Likely to
Exceed Budget,” July 31, 2008

GAO Report No. GAO-04-381, “DoD Needs Measures for Small Business
Subcontracting Program and Better Data on Foreign Subcontracts,” April 5, 2004




                                           16
Appendix B. Congressional Request




                    17
18
Appendix C. Diagram of the Phases of the
DDG-1000 Program, Showing Contractors
The following is a diagram of the four phases of the DDG-1000 program and the major
contractors who are participating in building the Zumwalt-class destroyer.




             Phase I1                             Phase II1                        Phase III
          DD-21 Program                         DD-21 Program                    DD(X) Program
        System Concept Design                 Initial Systems Design              Risk Mitigation



  NGSS                    BIW              NGSS                  BIW                   NGSS
 Gold Team              Blue Team         Gold Team            Blue Team




                                                                       BAE       BIW          Raytheon   Other




                                                         Phase IV
                                                      DDG-1000 Program
                                               Detailed Design and Integration


                                    BAE         BIW                NGSS          Raytheon



                                                                                 Lockheed




   1.
       Competition between the Blue Team led by
   Bath Iron Works with Lockheed Martin Corp. as
   the Combat Systems Integrator and the Gold
   Team led by NGSS with Raytheon Systems Co.
   1.
       Competition between the Blue Team led by
   as the Combat Systems Integrator.
   Bath Iron Works with Lockheed Martin Corp as
   the Combat Systems Integrator and the Gold
   Team led by Ingalls Shipbuilding Inc with
   Raytheon Systems Co. as the Combat Systems
   Integrator.




                                                          19
Appendix D. Congressional Questions and
Audit Responses
On May 29, 2007, four Senators—Arlen Specter; Robert P. Casey, Jr.; Joseph R.
Biden, Jr.; and Thomas R. Carper—and Representative Allyson Y. Schwartz requested
that the DoD Office of Inspector General perform an audit of the DDG-1000 program.
The congressional request posed three specific questions for Office of Inspector General
response.

Question 1: How many small businesses that participated in DDG-1000 Risk
Mitigation Phase [Phase III] were denied the opportunity to bid on DDG-1000
program Detailed Design and Integration Phase [Phase IV] because follow-on work
was awarded to Lockheed Martin, or other large defense contractors, on a sole-
source, noncompetitive basis?

Audit Response
We found no indication that the Navy denied any small business that participated in
DDG-1000 program Phase III the opportunity to bid on Phase IV. During phase III,
71 small businesses participated but did not participate in Phase IV, only one (TWT)
believed it was denied the opportunity to participate in Phase IV. As noted in the finding,
the Navy and its prime contractors adhered to small business subcontracting laws and
regulations and integrated small businesses into their overall DDG-1000 program small
business plans.

As also noted in the finding discussion, one small business subcontractor, TWT,
perceived that it had been denied the opportunity to bid on Phase IV. TWT claimed that
it had been prevented by Raytheon and Lockheed Martin from participating in Phase IV
work on the damage assessment component of the DDG-1000 ship control system after
performing related work during the first three phases of the DDG-1000 program. TWT
complaints were the subject of a lawsuit filed by TWT against Raytheon and Lockheed
Martin in the United States District Court for the District of New Jersey. On January 23,
2008, the District Court dismissed the TWT lawsuit “with prejudice and without costs.”

On August 5, 2005, and July 18, 2006, TWT filed requests for equitable adjustment with
NGSS, its Phase III prime contractor. The requests for $172,888 and $434,851,
respectively, were for costs TWT incurred in anticipation of doing work through
Phase IV. NGSS reimbursed TWT a total of $548,619 against the two equitable
adjustment claims. The Navy was not responsive to our requests to determine whether
the charges were passed through to the Navy and whether the Navy paid the charges. If
NGSS billed and inappropriately received reimbursement from the Navy for the
$548,619, we recommend that the Navy DDG-1000 contracting officer recover the
$548,619 paid to NGSS for subcontractor costs.




                                            21
Question 2: What was the total dollar value of the Detailed Design and Integration
Phase [Phase IV] follow-on [sub]contracts that were originally supposed to go to
small business?

Audit Response
As noted above, we found no indication that the Navy denied any small business that
participated in DDG-1000 program Phase III the opportunity to bid on Phase IV. Thus,
we could not identify any DDG-1000 Phase IV small business subcontracts that fell
within the parameters of the question.

Question 3: With the exception of legislatively mandated sole-source awards, such
as those for small business or minority set-asides, what Department of Defense
policies, regulations, and oversight safeguards are in place to prevent the direction
of subcontracts by DoD personnel without full and open competition?

Audit Response
On July 12, 2004, the Acting Under Secretary of Defense for Acquisition, Technology,
and Logistics issued guidance on “Selection of Contractors for Subsystems and
Components,” stating that the Government benefits from competition among prime
contractors and subcontractors and that Government insight into the subcontractor
selection process may be necessary to ensure fairness and the best value for DoD. The
Acting Under Secretary noted that, in developing acquisition strategies, program
managers and contracting officers should establish insight into a prime contractor’s plan
for assembling a team to deliver the required system capability, as well as for fostering
competition. The Acting Under Secretary also noted that solicitations should ask offerors
to submit a plan explaining how they will ensure that the subcontractor competition will
be conducted fairly and result in the best value for DoD. The Acting Under Secretary
noted that Government personnel should review these plans to determine whether the
offeror has taken adequate steps to ensure that a fair competition will be conducted for a
specified subsystem, and seek appropriate revision of the plan if the Government
concludes that it is likely that the offeror will show bias in the selection of a
subcontractor. The Acting Under Secretary noted that, as a last resort, Government
personnel should consider directly procuring the subsystem or component and furnishing
it as Government furnished equipment.

A November 7, 2007, memorandum from the Director, Defense Procurement and
Acquisition Policy on “Small Business Subcontracting Plans” states that Government
personnel should ensure that small business subcontracting plan compliance is included
as a special interest item in all future procurement management reviews. The Director
also required that when a contracting officer determines that no small business
subcontracting possibilities exist, the determination must be approved at a level above the
contracting officer and included in the official contract file in accordance with
FAR 19.705-2.

However, the FAR also permits the contracting officer to direct prime contractor award
of subcontracts without competition when doing so would be in the best interest of the


                                            22
Government. For example, FAR 44.201, “Consent and Advance Notification
Requirements,” and FAR 44.202, “Contracting Officer’s Evaluation,” describe the
contracting officer requirement to consent to prime contract selection of subcontracts.
The contracting officer’s consent to a subcontract may be required if the contracting
officer determines it is necessary to protect the Government because of the subcontract
type, complexity, or value, or because the subcontract needs special surveillance.

As discussed in the finding, the Navy directed Raytheon to award a DDG-1000 program
Phase IV subcontract to Lockheed Martin without the benefit of full and open
competition. The FAR permits the contracting officer to direct prime contractor award of
subcontracts without competition when doing so would be in the best interest of the
Government. We could not determine whether the Navy directed Raytheon award was
justified because the Navy could not provide any analysis, justification, or approval
documentation to support the contracting officer’s direction. However, the FAR does not
require a justification, approval, or file document regarding Government direction to
make award to a particular subcontractor.




                                           23
Department of the Navy Comments
                                    Final Report
                                     Reference




                                  Ref. (b) and (c)
                                  omitted as
                                  duplicative of
                                  the Navy
                                  memorandum.




                   25
26
27
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the Department
of Defense Office of Inspector General who contributed to the report are listed below.

Richard B. Jolliffe
Bruce A. Burton
Benjamin A. Mehlman
Rudolf Noordhuizen
George A. Ford
Cecil B. Tucker
Ryan D. Berkheimer
Allison Tarmann




                                          28
